                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




    The              EPA’s International Program
                     Office Needs Improved
                     Strategic Planning Guidance
                     Report No. 13-P-0386            September 9, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Ganesa Curley
                                                    Jerri Dorsey
                                                    Natasha Henry
                                                    Lauretta Joseph
                                                    Olga Stein




Abbreviations

EPA           U.S. Environmental Protection Agency
FY            Fiscal Year
IGMS          Integrated Grants Management System
NEPA          National Environmental Protection Act
OIG           Office of Inspector General
OITA          Office of International and Tribal Affairs


Cover photo: Examples of environmental problems addressed using EPA grant funding to
             (from left) combat air pollution and reduce e-waste. (EPA photos)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                       write:   EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                13-P-0386
                                                                                                       September 9, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              EPA’s International Program Office
The objective of this evaluation    Needs Improved Strategic Planning Guidance
was to determine how the
U.S. Environmental Protection        What We Found
Agency (EPA) ensures that
environmental and human             The EPA has the statutory authority to conduct international activities and has
health goals are achieved           several tools in place to help ensure that its partnerships with international
through partnerships with           entities achieve environmental and human health goals. However, the EPA’s
international entities. We          OITA needs additional strategic planning guidance to better manage anticipated
focused on (1) the statutory        environmental outcomes of foreign grants.
authority by which the EPA
awards international grants,        The EPA has the legal authority to award international and foreign grants under:
(2) anticipated environmental       (1) specific international grant authorities, and (2) research and demonstration
outcomes of foreign grants, and     authorities that are supplemented by the National Environmental Policy Act.
(3) tools in place to manage        Further, the EPA uses a combination of grants management tools, such as the
outcomes and measures for           Integrated Grants Management System and project officers, to help manage
grants. We focused on               outcomes and measures.
activities of the EPA’s Office of
International and Tribal Affairs    Although OITA collects environmental outcome/output information, OITA has not
(OITA), which awards grants to      incorporated the information into a comprehensive strategic planning document.
support international activities.   Also, the allocation of resources for planned activities is not described within
                                    OITA’s current strategic planning documents. OITA’s strategic planning guidance
This report addresses the           needs to be updated to provide greater accountability and justification for the
following EPA Themes:               international activities and grants that OITA manages. This would help assure
                                    that OITA’s grants align with the EPA’s goals of advancing public health and
 Addressing climate change         environmental improvement and that EPA resources are properly allocated.
  and improving air quality.
 Taking action on toxics and        Recommendations and Planned Corrective Actions
  chemical safety.
 Working toward a                  We recommend that the assistant administrator for OITA develop strategic
  sustainable future.               planning guidance to document how OITA links its achieved outcomes for
                                    international and foreign grant activities to its strategic plan goals, the process
                                    used by OITA to allocate resources for its international and foreign grant
                                    activities, and how OITA’s international and foreign grant activities align with the
                                    EPA’s overall goals.

                                    The agency concurred with our findings and recommendation. The agency
                                    provided corrective actions and an estimated completion date that meet the intent
For further information, contact    of the recommendation. The recommendation is resolved and open with
our Office of Congressional and     corrective actions ongoing. No further response to this report is required.
Public Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2013/
20130909-13-P-0386.pdf
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460


                                                                                       THE INSPECTOR GENERAL




                                           September 9, 2013

MEMORANDUM

SUBJECT:	 EPA’s International Program Office Needs Improved Strategic Planning Guidance
          Report No. 13-P-0386

FROM:	         Arthur A. Elkins Jr.

TO:	           Michelle DePass, Assistant Administrator
               Office of International and Tribal Affairs

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

Action Required

Because you agreed to the report’s recommendation and provided corrective actions and an estimated
completion date that meet the intent of the recommendation, you are not required to provide a written
response to this final report. The recommendation is resolved and open with corrective actions
ongoing. Should you choose to provide a response to this final report, we will post your response on
the OIG’s public website, along with our memorandum commenting on your response. You should
provide your response as an Adobe PDF file that complies with the accessibility requirements of
Section 508 of the Rehabilitation Act of 1973, as amended.

We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Assistant Inspector General
for Program Evaluation Carolyn Copper at (202) 566-0829 or copper.carolyn@epa.gov; or Acting
Director for Toxics, Chemical Management, and Pollution Prevention Evaluations Jerri Dorsey at
(919) 541-3601 or dorsey.jerri@epa.gov.
EPA’s International Program Office                                                                                             13-P-0386
Needs Improved Strategic Planning Guidance


                                      Table of Contents
   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


   Scope and Methodology.............................................................................................                 2


   Results of Review .......................................................................................................          3


        Statutory Authority...................................................................................................        3

        Grant Management Tools .......................................................................................                4

        Environmental Outcomes and Strategic Planning...................................................                              4


   Recommendation ........................................................................................................            5


   Agency Comments and OIG Evaluation ...................................................................                             6


   Status of Recommendations and Potential Monetary Benefits..............................                                            7




Appendices
   A       Files Reviewed ...................................................................................................         8


   B       Agency Comments .............................................................................................             10 


   C       Distribution .........................................................................................................    12 

Purpose
                 Our objective was to determine how the U.S. Environmental Protection Agency
                 (EPA) ensures that environmental and human health goals are achieved through
                 partnerships with international entities. Specifically, we focused on:

                         The statutory authority by which the EPA awards international grants.
                         The anticipated environmental outcomes of foreign grants.
                         Tools in place to manage outcomes and measures for grants.

Background
                 The EPA’s work to improve the environment extends to nearly 180 nations 

                 worldwide. This work is conducted through collaborative efforts with partners 

                 from around the world to facilitate commerce, promote sustainable development, 

                 protect vulnerable populations and engage diplomatically around the world. 

                 Some of these activities are funded with federal financial assistance, such as 

                 cooperative agreements and grants. 


                 The EPA awards cooperative agreements and grants to both countries and 

                 organizations to support international activities that protect human health and the 

                 environment while advancing the United States’ national interests through 

                 international collaboration. Program offices such as the Office of Air and 

                 Radiation, Office of Enforcement and Compliance Assurance, and Office of 

                 International and Tribal Affairs (OITA) conduct and manage international work. 

                 This report focuses on OITA. 


                 Congress has recently shown interest in the EPA’s international activities. In 2011, 

                 Congress asked the EPA about the costs and benefits of its international grants. 

                 In 2012, Congress proposed legislation that would restrict the agency from awarding 

                 grants for international activities to improve air pollution.1 The EPA testified that 

                 these international activities achieve mutual benefits including environmental 

                 regulations similar to EPA and improved pollution control technologies. 


                 Office of International and Tribal Affairs

                 OITA manages various types of activities, such as partnerships, bilateral
                 agreements, and international and foreign grants. According to OITA,
                 partnerships are generally multilateral, voluntary activities that are centrally
                 organized around shared goals. Bi/multilateral agreements involve the United
                 States and other governments agreeing to pursue specific goals and activities that



1
 The bill would revoke authority specifically under the Clean Air Act. See H.R. 4255, “Accountability in Grants
Act of 2012.” As of June 5, 2013, the act has not been voted on.
http://energycommerce.house.gov/hearing/legislative-hearing-hr-4255-accountability-in-grants-act-of-2012.


13-P-0386                                                                                                         1
            are both important to the U.S. government and consistent with agency’s
            international priorities.

            Six international priorities serve as the strategic focus of OITA’s international
            program activities:

               1.   Building Strong Environmental Institutions and Legal Structures.
               2.   Combating Climate Change by Limiting Pollutants.
               3.   Improving Air Quality.
               4.   Expanding Access to Clean Water.
               5.   Reducing Exposure to Toxic Chemicals.
               6.   Cleaning Up Electronic Waste (E-Waste).

            International grants or cooperative agreements are awarded to a domestic entity to
            perform work abroad. Foreign grants differ in that they are awarded to a foreign
            government, international organization, or non-governmental international
            organization or institution. For fiscal year (FY) 2012, OITA received more than
            $3.5 million in appropriated funds for international grants.

Scope and Methodology
            We conducted this performance evaluation in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the evaluation to obtain sufficient, appropriate evidence to provide a reasonable
            basis for our findings and conclusions based on our objectives. We believe that
            the evidence obtained provides a reasonable basis for our results based upon our
            objectives. We conducted this evaluation from November 2012 to July 2013.

            To determine how the EPA ensures that environmental and human health goals
            are achieved through partnerships with international entities, we focused our
            review on international and foreign grants managed by OITA. Specifically, we
            reviewed six grantee files provided by OITA. To determine what tangible
            environmental outcomes OITA expects to receive from international and foreign
            grants, we reviewed grant planning and performance documents. We also
            reviewed associated OITA performance measures used to capture outcomes.

            To determine the tools in place to manage outcomes and measure results, we
            interviewed EPA staff from OITA (including six project officers), the Office of
            Enforcement and Compliance Assurance, the Office of Air and Radiation, and the
            Office of Grants and Debarment. We also interviewed staff from the
            U.S. Department of State and the U.S. Agency for International Development. 

            We reviewed relevant EPA policies and procedures, strategic planning documents, 

            and data from the Integrated Grants Management System (IGMS). We also 

            reviewed relevant U.S. Government Accountability Office and Office of Inspector

            General (OIG) reports. To determine the statutory basis for the EPA awarding 

            international grants, we reviewed relevant statutes and met with agency staff. 



13-P-0386                                                                                       2
Results of Review
                  The EPA has the statutory authority to conduct international activities and has
                  several tools in place to help ensure environmental and human health goals are
                  achieved. Although EPA’s Foreign Grants Policy and National Program Guidance
                  direct the development of certain strategic planning elements, the EPA’s OITA
                  needs additional strategic planning guidance to better manage anticipated
                  environmental outcomes of foreign grants.

                  Statutory Authority

                  The EPA has the legal authority to award international and foreign grants under:

                          Specific international grant authorities. 
                          Research and demonstration authorities that are supplemented by the
                           National Environmental Policy Act (NEPA). 2  

                  The majority of the agency’s international grants are awarded under the EPA’s
                  research and demonstration grant authorities as supplemented by Section
                  102(2)(F) of NEPA. The research and demonstration grant authorities are
                  contained in such federal environmental statutes as the following:

                          Clean Water Act (Section 104(b)(3)).
 
                          Clean Air Act (Section 103(b)(3)).
 
                          Solid Waste Disposal Act (Section 8001(a)).
 
                          Toxic Substances Control Act (Section 10).
 
                          Federal Insecticide, Fungicide, and Rodenticide Act (Section 20).
 
                          Safe Drinking Water Act (Section 1442).
 
                          Marine Protection, Research, and Sanctuaries Act (Section 203(a)(2)).
 

                  Although each of these statutes is unique, they generally authorize the EPA to
                  award grants to a variety of eligible entities for activities such as research,
                  demonstrations, experiments, investigations, training and education in the areas of
                  air pollution, water pollution, solid waste, pesticides and toxic substances.

                  According to the agency, these research and demonstration authorities can also
                  provide independent grant authority for international grants only if the activities are
                  anticipated to result in benefits that are transferable to any domestic environmental
                  program. If there is no transferrable benefit and no other explicit international grant
                  authority exists, the EPA’s research and demonstration grant authorities may be
                  supplemented by Section 102(2)(F) of NEPA, which authorizes and directs the
                  agency to lend support to international activities designed to maximize

2
  There are a number of specific international grant authorities, for example Section 617(b) of the Clean Air Act,
42 U.S.C. §7671p(b), relating to the Montreal Protocol on Stratospheric Ozone Protection; and the Federal
Insecticide, Fungicide, and Rodenticide Act, 7 U.S.C. §136o, relating to the development of improved pesticide
research and regulations.  


13-P-0386                                                                                                            3
                 international cooperation in anticipating and preventing a decline in the quality of
                 the world’s environment. The research and demonstration authorities described
                 above and in Section 102(2)(F) of NEPA authorize grants for activities performed
                 abroad or whose primary purpose is international in scope.

                 Grant Management Tools

                 OITA uses a variety of tools to manage international and foreign grants. These
                 international and foreign grants are managed under many of the same regulatory
                 requirements and systems as other agency grants. A combination of IGMS, EPA
                 policies and procedures on environmental results3 and grants management, project
                 officer oversight, and OITA’s Performance Measures Tracking System create a
                 system of internal controls to help manage grant outcomes and measure results.

                 As of May 2013, OITA’s Performance Measures Tracking System was still in a
                 pilot phase and being tested. This new database system will use a series of
                 measures to track OITA activities; this includes international grant activities and
                 their associated outputs and outcomes. According to OITA, this system will be
                 used as one of many tools to inform resource decisions and prioritize what work
                 will be conducted.

                 Environmental Outcomes and Strategic Planning

                 As noted, OITA international and foreign grants are designed to address OITA’s
                 six international priorities. According to the EPA’s Foreign Grants Policy, OITA
                 must determine how its proposed activities align with the EPA’s goals in
                 advancing public health and environmental improvement and the extent to which
                 the proposed activity complements rather than duplicates other EPA or
                 U.S. government international environmental programs or initiatives. Although
                 OITA has environmental outcome/output information as detailed by the
                 Government Performance and Results Act, OITA has not incorporated the
                 information into a subsequent comprehensive strategic planning document.

                 OITA receives a range of environmental outcomes and outputs4 for its
                 international and foreign grants. Examples of anticipated environmental
                 outcomes/outputs are “Increased level of harmonization and reduced redundancies
                 among all key stakeholder activities” and “Improve drinking water quality
                 provided by partner utilities in East Africa.” Examples of grantee-reported

3
  EPA Policies 5700.7 and 5700.8 address, respectively, environmental results achieved and assessing capabilities of
non-profit applicants for managing assistance awards.
4
  Outcome means the result, effect or consequence that will occur from carrying out an environmental program or
activity that is related to an environmental or programmatic goal or objective. Outcomes may be environmental,
behavioral, health-related or programmatic in nature; must be quantitative; and may not necessarily be achievable
within an assistance agreement funding period. Output means an environmental activity, effort and/or associated
work product related to an environmental goal or objective, that will be produced or provided over a period of time
or by a specified date. Outputs may be quantitative or qualitative but must be measurable during an assistance
agreement funding period.


13-P-0386                                                                                                         4
            outcomes/outputs include “Training workshops organized (number of personnel
            trained)” and “Number of countries phasing out lead in gasoline and going to
            50 ppm fuel.” Additional examples of expected outcomes and reported outputs are
            provided in appendix A. Outputs and outcomes from grants will be collected and
            aggregated into OITA’s new Performance Measures Tracking System. Prior to the
            new system, OITA did not have a systematic way to count outputs for activities
            being carried out. OITA expects that the new system will assist in identifying
            what work will be conducted and informing resource decisions.

            Outcomes from international and foreign grants are generally project driven and
            are not defined as part of the planning process. Additionally, OITA cannot
            determine whether resources are being allocated to achieve results. OITA uses
            various documents to guide its work that contain information about project goals
            and anticipated accomplishments. These include the FY 2012 Operating Plan
            Narrative Proposal and Draft FY 2014 National Program Manager Guidance.

            The OITA FY 2012 Operating Plan Narrative Proposal identified project goals
            and anticipated accomplishments for planned projects. However, it does not
            provide information on how or why OITA allocated resources to these projects.
            Prior to FY 2013, OITA did not have National Program Manager Guidance or a
            strategic plan that showed the organization’s process for prioritizing and
            allocating resources to meet strategic goals. The Draft FY 2014 National Program
            Manager Guidance includes a narrative of OITA’s plans for addressing each of
            the six international priorities. However, the draft National Program Manager
            Guidance did not include how OITA uses its work to meet its strategic goals, nor
            does the draft guidance contain any performance measures or outcome
            information.

            Although environmental outcome/output information is collected by OITA, this
            information has not been incorporated into a comprehensive strategic planning
            document. Strategic planning guidance needs to be updated to show how OITA’s
            grants align with the EPA’s goals for advancing public health and protection of
            the environment. This would provide greater accountability and justification for
            the international and foreign activities/grants that are managed by OITA.

Recommendation
            We recommend that the assistant administrator for the Office of International and
            Tribal Affairs:

               1. Develop strategic planning guidance to document: 

                      How OITA links its achieved outcomes for international and foreign
                       grant activities to the goals of its strategic plan.
                      The process used by OITA to allocate resources for its international
                       and foreign grant activities.


13-P-0386                                                                                      5
                   	 How OITA’s international and foreign grant activities align with the
                      EPA’s goals in advancing public health and environmental
                      improvement.

Agency Comments and OIG Evaluation
            The agency concurred with our findings and recommendation. The agency
            provided corrective actions and an estimated completion date that meet the intent
            of the recommendation. The recommendation is resolved and open with corrective
            actions ongoing. No further response to this report is required.

            The agency’s detailed response is provided in appendix B. The agency also
            provided technical comments on the draft report, which we have incorporated into
            our report as appropriate.




13-P-0386                                                                                       6
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed-To
    No.      No.                         Subject                        Status1        Action Official             Date      Amount      Amount

     1        5     Develop strategic planning guidance to document:      O        Assistant Administrator,      6/30/14
                       How OITA links its achieved outcomes for                  Office of International and
                        international and foreign grant activities to                    Tribal Affairs
                        the goals of its strategic plan.
                       The process used by OITA to allocate
                        resources for its international and foreign
                        grant activities.
                       How OITA’s international and foreign grant
                        activities align with the EPA’s goals in
                        advancing public health and environmental
                        improvement.




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





13-P-0386                                                                                                                                           7
                                                                                               Appendix A

                                          Files Reviewed
The length of time for grant implementation varied, but four of the grants were awarded for a
5-year period. Reported outputs/outcomes are generally listed in the project file and provided by
the grantee. Anticipated outputs/outcomes are generally listed in the EPA Funding Action
Memo, Scope of Work, or other documentation provided in the grant file.

Table 1: Examples of outputs/outcomes reported by the EPA and grantees
                       Cooperative
      Grantee and                    EPA      OITA            Outputs/outcomes              Outputs/outcomes
                       agreement/        5           6
    funded amount                    goal    priority        reported by grantee          anticipated by the EPA
                        grant type
    Organization for     Foreign      1         2        1. Report on monitoring and     1. Assessments
      Economic                                              evaluation of progress in       performed or facilitated
     Development                                            the development and use         by EPA.
                                                            of measures of effective
                                                            adaptation.
                                                         2. Report on private sector
                                                            engagement in adaptation.
                                                         3. Tools to inform
                                                            international policy,
                                                            planning and decision-
                                                            making in climate
                                                            sensitivity sectors.
    United Nations       Foreign      3,4       6        1. Increased harmonization      1. Increased level of
      University                                            of approaches to                harmonization and
                                                            preventing exports of           reduced redundancies
                                                            e-waste from developed          among all key
                                                            to developing countries.        stakeholder activities.
                                                         2. Use of tracking data to      2. Stakeholder-applied,
                                                            develop appropriate             science-based pilot
                                                            national and international      projects.
                                                            policies toward e-waste.     3. Solid recommendations
                                                         3. Replication and                 for national and
                                                            refinement of                   international policy
                                                            demonstrations of               making based on the
                                                            sustainable recycling that      results of pilot projects.
                                                            lead to improved
                                                            management of e-waste
                                                            globally.


5
  EPA FY 2011-2015 Strategic Plan Goals:
        1: Taking Action on Climate Change and Improving Air Quality.
        2: Protecting America’s Waters.
        3: Cleaning Up Communities and Advancing Sustainable Development.
        4: Ensuring the Safety of Chemicals and Preventing Pollution.
        5: Enforcing Environmental Laws.
6
  OITA International Priorities:
        1: Building Strong Environmental Institutions and Legal Structures.
        2: Combating Climate Change by Limiting Pollutants.
        3: Improving Air Quality.
        4: Expanding Access to Clean Water.
        5: Reducing Exposure to Toxic Chemicals.
        6: Cleaning Up Electronic Waste (E-Waste).


13-P-0386                                                                                                       8
                    Cooperative
  Grantee and                     EPA      OITA            Outputs/outcomes              Outputs/outcomes
                    agreement/        5           6
funded amount                     goal    priority        reported by grantee          anticipated by the EPA
                     grant type
 United Nations         Foreign    4         5        1. Number of countries          1. Pilot projects on low
 Environmental                                           phasing out lead in             sulfur fuel road map
  Programme                                              gasoline and going to           development - draft low
                                                         50 ppm fuel.                    sulfur fuel target
                                                                                         developed for two
                                                                                         countries for
                                                                                         consideration of
                                                                                         high-level officials.
                                                                                      2. Re-Launch of
                                                                                         Partnerships for Clean
                                                                                         Fuels and Vehicles
                                                                                         (PCFV) at Rio +20-
                                                                                         Successful re-launch of
                                                                                         the PCFV.
  Breathe Easy          Foreign    4       1,3,5      1. To achieve greater           1. Improved management
     Jakarta                                             protection of human health      and reduction
  Stakeholders                                           through improved urban          strategies of key air
      Group                                              air quality in Jakarta.         pollutants in Jakarta.
                                                         Support environmental        2. Improved protection of
                                                         outcomes of Breathe Easy        human health in
                                                         Jakarta, such as reduction      Jakarta, through
                                                         of key air pollutants.          increased awareness
                                                                                         and involvement by the
                                                                                         public.
                                                                                      3. Improved capacity of air
                                                                                         quality management
                                                                                         officials to create
                                                                                         targeted strategies for
                                                                                         air quality improvement
                                                                                         through consistent
                                                                                         stakeholder input.
Desert Research          Int’l.    1,4     1,3,5      1. Strengthen the capacity to   1. To support the
   Institute                                             prepare a science-based         environmental
                                                         clean air action plan to        outcomes of the other
                                                         achieve better public           components of Breathe
                                                         health and air quality.         Easy Jakarta, such as
                                                                                         reduction of key air
                                                                                         pollutants.
  International         Foreign    2,4       4        1. Training workshops           1. Improve drinking water
      Water                                              organized (number of            quality provided by
   Association                                           personnel trained).             partner utilities in
                                                      2. Report on long-term,            East Africa.
                                                         full-scale training          2. Accrue operational
                                                         programme for African           efficiencies and
                                                         region.                         framework to better
                                                      3. Five-year (2011-2016)           target more sustainable
                                                         strategic plan for Water        capital investments.
                                                         Safety Plan training in      3. Framework for
                                                         Africa with committed           increasing resiliency
                                                         funding for budget.             and preparedness of a
                                                                                         water utility to the
                                                                                         impacts of climate
                                                                                         change.
Source: OIG analysis.




13-P-0386                                                                                                  9
                                                                                   Appendix B

                               Agency Comments


                                          August 06, 2013

MEMORANDUM


SUBJECT: 	    Response to Office of Inspector General Draft Report No. OPE-FY13-0004, “The
              EPA’s International Program Office Needs Improved Strategic Planning
              Guidance,” July 1, 2013

FROM:         Michelle DePass       /s/       8/6/2013
              Assistant Administrator

TO:           Arthur A. Elkins, Jr.
              Inspector General


        Thank you for the opportunity to respond to the issues and recommendations in the
draft report. The following is a summary of The Office of International and Tribal Affairs’
(OITA) overall position, along with its position on the draft report’s recommendation.

OVERALL POSITION

      OITA accepts the recommendation in the draft report, however we have included a
Technical Comments Attachment to supplement and clarify this response.

        Over the last several years OITA has undertaken a number of efforts to strengthen its
internal control structure, resulting in the development and implementation of a variety of
important management and planning tools. As such, the Office sees the value of updating our
planning guidance, emphasizing our strategic planning approach and further detailing how our
grants support the Agency’s goals and international priorities.

        OITA will examine our existing guidance (e.g., NPM and Operating Plan guidance) and
identify the most appropriate options for integrating the report’s recommendations.




13-P-0386                                                                                       10
RESPONSE TO REPORT RECOMMENDATIONS

Agreements

No.    Recommendation                          High-Level Intended                    Estimated
                                               Corrective Action(s)                   Completion by
                                                                                      Quarter and FY
1      Develop strategic planning              OITA will update and                   3rd Quarter 2014
       guidance to document:                   supplement planning guidance
                                               to document:
       •    How OITA links its achieved
            outcomes for international         •   How OITA links its achieved
            and foreign grant activities to        outcomes for international
            the goals of its strategic plan.       and foreign grant activities to
       •    The process used by OITA to            the goals of its strategic plan.
            allocate resources for its         •   The process used by OITA to
            international and foreign              allocate resources for its
            grant activities.                      international and foreign
       •    How OITA’s international               grant activities.
            and foreign grant activities       •   How OITA’s international
            align with the EPA’s goals             and foreign grant activities
            in advancing public health             align with the EPA’s goals
            and environmental                      in advancing public health
            improvement                            and environmental
                                                   improvement




CONTACT INFORMATION

      If you have any questions regarding this response, please contact Teresa Ruppe, Audit
Follow-Up Coordinator, Office of International and Tribal Affairs at 202-564-6619.

Attachment

cc:

Jane Nishida, Acting DAA
Katrina Cherry, Director OMIS
Neilima Senjalia, Acting Director ORBA
Walker Smith, Director OGAP




13-P-0386                                                                                                11
                                                                             Appendix C

                                    Distribution
Office of the Administrator
Assistant Administrator for International and Tribal Affairs
Agency Follow-Up Official (the CFO)
Audit Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Information
Deputy Assistant Administrator for International and Tribal Affairs
Audit Follow-Up Coordinator, Office of International and Tribal Affairs




13-P-0386                                                                            12
